No. 19-

 

IN THE

Supreme Court of the United States

JEFFREY ALAN OLSON,

Petitioner,
Vv.

COMMONWEALTH OF PENNSYLVANIA,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Pennsylvania

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,955 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 28, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
